                                                                         EMPLOYMENT AND
                                                                         TRAINING ADMINISTRATION
                           Office of Inspector General—Office of Audit
U.S. Department of Labor




                                                                         USE OF IRS FORM 1099 DATA TO
                                                                         IDENTIFY MISCLASSIFIED WORKERS




                                                                                              Date Issued: September 30, 2005
                                                                                              Report Number: 03-05-005-03-315
U.S. Department of Labor                                September 2005
Office of Inspector General
Office of Audit                                         State Workforce Agencies
                                                        Use of IRS Form 1099 Data
                                                        To Identify Misclassified Workers
BRIEFLY…                                                WHAT OIG FOUND
Highlights of Report Number: 03-05-005-03-315, to
the Assistant Secretary for Employment and              The OIG found that only nine SWAs were using the
Training.                                               1099 data to identify potential employers
                                                        misclassifying employees as independent
WHY READ THE REPORT                                     contractors.

The Federal-state Unemployment Compensation             Based on our contacts with the SWAs, we identified
(UC) program, created by the Social Security Act of     five common obstacles to the SWAs’ application for
1935, offers the first economic line of defense         and use of the 1099 data. (See page 9).
against the effects of unemployment. The
Employment and Training Administration’s (ETA’s)        We found that communication with the IRS was the
Office of Workforce Security (OWS) administers the      key to successfully obtaining and using the 1099
program. The UC program is almost totally funded        data. We also found that SWAs may be further
by employer taxes.                                      ahead in meeting the IRS application and safeguard
                                                        requirements if they are already receiving other IRS
In a March 1999 Office of Inspector General (OIG)       tax information. Representatives from SWAs using
audit on best practices of State Workforce Agencies     the 1099 data identified several extract criteria to
(SWA) UI field tax audits, we reported that the 1099-   make the 1099 data useful. Finally, we found that
MISC Income Data, supplied by the Internal              the age of the 1099 data was a perceived obstacle
Revenue Service (IRS), can be used as a tool to         because the age of the data does not affect its
identify misclassified employees. Employers who         usefulness in identifying potential employers who
misclassify employees as independent contractors        may be misclassifying employees.
reduce tax liability by not paying state and Federal
Unemployment Insurance, Social Security, and            As of December 2004, we found that 7 of the 9
Medicare taxes. We recommended that OWS work            SWAs reported that they identified misclassified
with the IRS to develop an extract tape of thee IRS     employees. The seven SWAs started reporting
Form 1099 tailored for use SWAs. The IRS first          results at staggered quarters beginning with the 4th
permitted SWAs to apply for the IRS 1099 data in        quarter of calendar year 2002. As of December
October 2001                                            2004, seven SWAs reported that they identified
                                                        7,118 misclassified employees, recovered
WHY OIG DID THE AUDIT                                   $1,492,521 in underreported UI tax contributions,
                                                        and adjusted $328,634 for overreported UI tax
We conducted this audit to answer the following         contributions associated with these workers
questions: (1) How many SWAs were using the 1099
data to identify potential employers misclassifying     WHAT OIG RECOMMENDED
employees as independent contractors? (2) What
were the obstacles that influenced the SWAs not to      We recommended that the Assistant Secretary for
apply for and use the 1099 data? (3) What were the      Employment and Training: provide assistance and
methods and strategies used by the SWAs that were       guidance to the SWAs applying for the 1099 data to
successful in obtaining and using the 1099 data?        increase the possibility that they are successful in
and (4) What results were achieved by SWAs using        obtaining and using the data; communicate to these
the 1099 data since the IRS made it available in        SWAs how to overcome obstacles in obtaining and
2001?                                                   using the data; and encourage SWAs before the
.                                                       start of the 2006 IRS enrollment period to apply for
READ THE FULL REPORT                                    and use the 1099 data in their UI field tax audit
To view the report, including the scope,                program.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2005/03-05-    ETA agreed with, and has already taken action to
005-03-315.                                             implement, our recommendations.
                                      Use of IRS Form 1099 Data To Identify Misclassified Workers


Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    1. Only Nine SWAs Were Using the 1099 Data to Identify Potential
       Employers Misclassifying Employees as Independent Contractors ............. 8

    2. There Were Five Common Obstacles That Influenced the SWAs Not to
       Apply For and Use the 1099 Data...................................................................... 9

    3. Communication With the IRS Was the Key to Successfully Obtaining and
       Using the 1099 Data ......................................................................................... 10

    4. SWAs Using the 1099 Data Identified Misclassified Employees,
       Recovered Underreported UI Tax Contributions, and
       Adjusted Overreported UI Tax Contributions ................................................ 14

EXHIBITS...................................................................................................................... 17

    A. IRS Suggestions, Tips and Examples For Preparing a Safeguard
       Procedures Report ........................................................................................... 19

    B. Safeguard Procedures Report Check List ....................................................... 25

APPENDICES ............................................................................................................... 27

    A. Background ...................................................................................................... 29

    B. Objective, Scope, and Methodology............................................................... 31

    C. Acronyms and Abbreviations.......................................................................... 33

    D. Agency Response ............................................................................................ 35




U.S. Department of Labor—Office of Inspector General                                                                           1
Use of IRS Form 1099 Data To Identify Misclassified Workers




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers



Executive Summary
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), has cited that
enhancing the integrity and solvency of the Unemployment Compensation program is a
challenge facing DOL. The Unemployment Compensation program is mostly funded by
employer taxes.

According to the IRS, as a general rule, an independent contractor is an individual who
has the right to control the means and the method of accomplishing the results of the
work to be done, whereas an employee performs services that are controlled by the
employer. Payments to independent contractors are reported to the IRS on the Form
1099-MISC Income. Employers who misclassify employees as independent contractors
avoid their tax obligations by not paying state and Federal Unemployment Insurance
(UI), Social Security, and Medicare taxes.

In a March 1999 audit (Report No. 03-99-006-03-315) on best practices of State
Workforce Agencies (SWA) UI field tax audits, we reported that the 1099-MISC Income
Data, (1099 data) supplied by the Internal Revenue Service (IRS), can be used as a tool
to identify misclassified employees. We recommended that the Employment and
Training Administration’s (ETA’s) Office of Workforce Security (OWS) encourage the
IRS to develop an extract of the 1099 data tailored for use by SWAs in UI field tax
audits. The IRS first permitted SWAs to apply for the 1099 data in August 2001 as part
of its annual application process for the exchange of Federal tax information with
government entities.

We conducted this audit to assess the extent of SWAs using the 1099 data to identify
potential employers misclassifying employees as independent contractors. Specifically,
we wanted to answer the following questions.

   1. How many SWAs were using the 1099 data to identify potential employers
      misclassifying employees as independent contractors?

   2. What were the obstacles that influenced the SWAs not to apply for and use the
      1099 data?

   3, What were the methods and strategies used by the SWAs that were successful
      in obtaining and using the 1099 data?

   4. What results were achieved by SWAs using the 1099 data since the IRS made it
      available in 2001?




U.S. Department of Labor—Office of Inspector General                                  3
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


Results

We found that:

    1. Only nine SWAs were using the 1099 data to identify potential employers
       misclassifying employees as independent contractors. Since 2002 when the IRS
       first made 1099 data available to SWAs for use in their UI field tax audits, we
       found that only 19 SWAs had applied to the IRS to receive it. We contacted
       these 19 SWAs and found that only 9 were using the 1099 data as of December
       2004. The remaining 10 SWAs encountered obstacles that prevented them from
       obtaining and using the 1099 data. We found that 3 of these 10 SWAs applied
       for the 1099 extract tape but were unsuccessful in obtaining it and the remaining
       7 received the tape but decided not to use the data. The IRS informed us that 25
       SWAs applied to receive the 1099 data in 2005. This consisted of 16 SWAs that
       had not previously applied or used the 1099 data and 9 SWAs that are currently
       using the data.

    2. Based on our contacts with the 33 SWAs that did not participate in the 2001 IRS
       application process and the 10 SWAs that applied for the 1099 data but did not
       obtain it, or obtained but did not use it, we identified five common obstacles to
       the SWAs’ application for and use of the 1099 data. (See page 9)

    3. Communication with the IRS was the key to successfully obtaining and using the
       1099 data. SWA representatives told us that establishing effective
       communication with the IRS Government Liaisons helped them to successfully
       complete the application and safeguard requirement process. We also found
       that SWAs may be further ahead in meeting the IRS application and safeguard
       requirements if they are already receiving other IRS tax information.
       Representatives from SWAs using the 1099 data identified several extract criteria
       to make the 1099 data useful. Finally, we found that the age of the 1099 data
       was a perceived obstacle because the age of the data does not affect its
       usefulness in identifying potential employers who may be misclassifying
       employees.

    4. The results from UI field audits in which the SWAs used the 1099 data identified
       misclassified employees, recovered underreported UI tax contributions, and
       adjusted overreported UI tax contributions. As of December 2004, we found that
       7 of the 9 SWAs reported that they identified misclassified employees. While the
       other two SWAs said they used the 1099 data, they did not identify for audit any
       employers who had the potential of misclassifying employees. The seven SWAs
       started reporting results at staggered quarters beginning with the 4th quarter of
       calendar year 2002. As of December 2004, seven SWAs reported that they
       identified 7,118 misclassified employees, recovered $1,492,521 in underreported




4                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-05-005-03-315
                              Use of IRS Form 1099 Data To Identify Misclassified Workers

       UI tax contributions, and adjusted $328,634 for overreported UI tax contributions
       associated with these workers1.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

    1. Provide assistance and guidance to the 16 new SWAs that applied for the1099
       data during the 2004 IRS application period to increase the possibility that they
       are successful in obtaining and using the data.

    2. Communicate to the SWAs interested in applying for and using the 1099 data
       how to overcome: the complexity of the IRS application process; the difficulty in
       meeting the IRS safeguard requirements; obtaining the IT resources needed to
       make the 1099 data useful; and the perception that the age of the 1099 data is
       an obstacle to using it.

    3. Send a notification, along with a copy of this report, to SWAs before the start of
       the 2006 IRS enrollment period, encouraging them to apply for and use the 1099
       data in their UI field tax audit program.

Agency Response

ETA concurred with our recommendations and responded that they have already taken
corrective action. The response is attached as Appendix D.

OIG Conclusion

Recommendations 1 and 2 are resolved and closed and recommendation 3 is resolved
and can be closed when we receive documentation that the notification and audit report
have been sent out to each SWA.




1
  Overreported UI tax contributions represent incidents when mistakes are made and employers overpay
their UI tax contributions. These overpayments result in adjustments.

U.S. Department of Labor—Office of Inspector General                                                   5
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC. 20210




                           Assistant Inspector General’s Report


Ms. Emily DeRocco
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210


According to the IRS, as a general rule, an independent contractor is an individual who
has the right to control the means and the method of accomplishing the results of the
work to be done, whereas an employee performs services that are controlled by the
employer. Payments to independent contractors are reported to the IRS on the Form
1099-MISC Income. In many cases, employers have misclassified their employers as
independent contractors to avoid their UI and other tax obligations.

In a 1999 audit of SWAs’ best practices to improve the effectiveness of UI field tax
audits, OIG found the use of 1099 data to be an effective tool for identifying employers
misclassifying workers as independent contractors. OIG recommended that ETA’s
OWS encourage the IRS to develop an extract of the 1099 data tailored for the SWAs
so that it can be used in UI field tax audits. The IRS first permitted SWAs to apply for
the 1099 data in August 2001.

We conducted this audit to assess the extent of SWAs use of 1099 data in UI field tax
audits. Specifically, we wanted to answer the following questions.

     1. How many SWAs were using the 1099 data to identify potential employers
        misclassifying employees as independent contractors?

     2. What were the obstacles that influenced the SWAs not to apply for and use the
        1099 data?

     3. What were the methods and strategies used by the SWAs that were successful
        in obtaining and using the 1099 data?

     4. What results were achieved by SWAs using the 1099 data since the IRS made
        it available in 2001?

We conducted the audit in accordance with Government Auditing Standards. Our
scope and methodology are detailed in Appendix B.

U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


Objective 1 − How many SWAs were using the 1099 data to identify potential employers
misclassifying employees as independent contractors?

Finding - Only nine SWAs were using the 1099 data to identify potential
employers misclassifying employees as independent contractors.

Only 9 SWAs are using the 1099 data to identify potential employers misclassifying
employees as independent contractors. Since 2002 when the IRS first made 1099 data
available to SWAs for use in their UI field tax audits, we found that only 19 SWAs had
applied to the IRS to receive it. We contacted these 19 SWAs and found that only 9
were using the 1099 data as of December 2004. The remaining 10 SWAs encountered
obstacles that prevented them from obtaining and using the 1099 data. We found that 3
of these 10 SWAs applied for the 1099 extract tape but were unsuccessful in obtaining it
and the remaining 7 received the tape but decided not to use the data. The IRS
informed us that 25 SWAs applied to receive the 1099 data in 2005. This consisted of
16 SWAs that had not previously applied or used the 1099 data and 9 SWAs that are
currently using the data.

In August 2004, OWS and IRS intensified their outreach efforts by conducting telephone
conference calls with SWAs to encourage them to apply to the IRS for the 1099 data.
OWS and IRS conducted 2 telephone conferences with officials from 27 SWAs who
expressed an interest in applying for and using the 1099 data. The purpose of the
telephone conferences was to discuss how to overcome obstacles that SWAs faced in
the application process and in using 1099 data in the UI field tax audits. OIG also
participated in the telephone conference calls to present the preliminary results of our
work concerning the obstacles and strategies for overcoming the obstacles. The IRS
informed us these telephone conferences resulted in 25 SWAs applying to receive 1099
data in 2005. The 25 SWAs consisted of 16 that had not previously applied or used the
1099 data and the 9 that are currently using the data.

It is our position that use of 1099 data is an effective tool for identifying employers
misclassifying workers as independent contractors and targeting these employers for
audits would result in recoveries that would enhance the solvency and financial
condition of the state unemployment trust funds.

Recommendation

1. We recommend that the Assistant Secretary for Employment and Training provide
assistance and guidance to the 16 new SWAs that applied for the 1099 data during the
2004 IRS’s application period to increase the possibility that they are successful in
obtaining and using the data.




8                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


Agency Response

ETA officials responded that they have taken action to implement the recommendation.
Beginning with conference calls in August of 2004, personnel from the Office of
Workforce Security (OWS) worked very closely with the IRS, OIG and SWAs to help
ensure successful use of these data. OWS coordinated a follow up conference call on
March 23, 2005, specifically for the benefit of the new states requesting the data from
IRS. The objective of this call was to provide guidance to state information technology
staff responsible for receiving, sorting, and manipulating the 1099-MISC data. In
advance of the call, each participating state was given a sample data record in ASCll
format, and a COBOL picture of the data. An IRS programmer participated and
explained each of these information items and answered technical questions. In
addition, tax and technical staff from states that had been successful in obtaining and
using the data participated in the call to share their knowledge and experience with it.

OIG Conclusion

The recommendation is resolved and closed. ETA’s March 23, 2005, conference call
with the newly enrolled SWAs is sufficient to address the recommendation.

Objective 2 − What were the obstacles that influenced the SWAs not to apply for
and use the 1099 data?

Result - There were five common obstacles that influenced the SWAs not to apply
for and use the 1099 data.

There were five common obstacles that influenced the SWAs not to apply for and use
the 1099 Data. See chart below. In September and October 2001 we contacted the UI
field tax audit representatives for the 33 SWAs that did not participate in the 2001 IRS
application process and identified common obstacles that influenced their decision not
to apply for the1099 data. In June 2002, we also interviewed UI field tax audit
representatives from the 10 of the 19 SWAs that applied for the 1099 data, but were
either not successful in obtaining the data, or if they obtained the data, they decided not
to use it. The 10 SWAs provided similar obstacles as the 33 SWAs that did not
participate in the 2001 IRS application process. The following chart provides the five
common obstacles provided to us by the SWAs contacted, the frequency of the SWAs’
responses to the obstacles, and a description of each obstacle.

                     Number of SWA
      Obstacle                                                 Description
                       Responses
                                       SWA officials told us major changes to systems and/or
  Other
                            21         other priorities made it an obstacle to apply for the 1099
   Priorities
                                       data in the IRS’s initial application process in August 2001.
                                       In meeting the IRS requirements for securing 1099 data,
 Meeting IRS                           SWAs perceived that the time and cost of the IT resources
                            14
  Safeguards                           required and possible security upgrades would be
                                       significant and difficult to meet.


U.S. Department of Labor—Office of Inspector General                                                   9
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers

                      Number of SWA
     Obstacle                                                   Description
                        Responses
                                      SWAs perceived that the age of the 1099 data from the IRS
 Age of the Data              8       would not be useful because it was outdated, i.e., receiving
                                      2002 data in 2004.
                                      SWA officials told us they had experienced difficulties in
                                      contacting the IRS Government Liaisons to obtain
 IRS Application                      information on the application process and assistance in
                           7
   Process                            completing the required documentation. Therefore, many
                                      SWA officials were unaware of the specifics of the IRS
                                      application process.
                                      SWA officials told us they experienced difficulties in
 Lack of IT
                           7          obtaining IT resources needed to be able to analyze and
   Resources
                                      make the IRS 1099 extract data useful for their audits.
Note: Some SWAs experienced more than one obstacle.

Objective 3 − What were the methods and strategies used by the SWAs that were
successful in obtaining and using the 1099 data?

Finding - Communication with the IRS was the key to successfully obtain and use
the 1099 data.

Communication with the IRS was the key to successfully obtain and use the 1099 data.
SWA representatives told us that establishing effective communication with the IRS
Government Liaisons helped them to successfully complete the application and
safeguard requirement process. We also found that SWAs may be further ahead in
meeting the IRS application and safeguard requirements if they are already receiving
other IRS tax information. Representatives from SWAs using the 1099 data identified
several extract criteria to make the 1099 data useful. Finally, we found that the age of
the 1099 data was a perceived obstacle because the age of the data does not affect its
usefulness in identifying potential employers who may be misclassifying employees.

To identify the strategies successful SWAs used to overcome the obstacles, in
November and December of 2003, we visited four SWAs that were successful in
applying, obtaining, and using the 1099 extract tape. The four successful SWAs
provided similar responses about how they overcame the obstacles encountered by the
unsuccessful SWAs. Additionally, during telephone conferences in August 2004 with
officials from the OWS and IRS, the SWAs provided us methods and strategies to
address both the real and perceived obstacles.

Overall, the SWAs that were successful in applying for, obtaining, and using the 1099
data expressed that communication with the IRS was the deciding factor that assisted
them in overcoming the obstacles identified by the unsuccessful SWAs. The sections
below describe the obstacles encountered by the unsuccessful SWAs and the
strategies and methods to successfully overcome the obstacles for obtaining and using
the 1099 data. We did not identify any strategies or methods to address the other
priorities obstacle. SWA officials told us major changes in their automated tax system



10                                          U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers

and/or other priorities made it an obstacle to apply for the 1099 data in the IRS’ initial
application process in August 2001.

1. IRS Application Process for 1099 Extract Tape

Before an entity can receive Federal tax information, the IRS requires the entity to
annually complete a Data Extract Enrollment Form. This form is generally due by the
end of September. In addition to the Data Extract Enrollment Form, the IRS requires
the entity to complete and execute a Basic Agreement. The Basic Agreement provides
the basis for coordinating the exchange of Federal tax information between the IRS and
receiving agency. The receiving agency may supplement this Basic Agreement with an
Implementing Agreement that prescribes the nature, quantity, and mechanics for the
continuous exchange of tax information provided for in the Basic Agreement.

The initial obstacle for SWAs to overcome in the application process is contacting their
IRS Government Liaisons. The Government Liaisons are responsible for assisting the
SWAs in the application process. The successful SWAs told us that establishing an
effective relationship with their IRS Government Liaison helped them to expedite the
application process.

To illustrate the benefit of establishing an effective relationship with the IRS
Government Liaison, we found the SWAs may currently have an executed Basic
Agreement and Implementing Agreement with the IRS if their state is receiving other
Federal tax information. The IRS informed us that 37 SWAs had an executed Basic
Agreement and 26 had an Implementing Agreement. The IRS said that its Government
Liaisons are aware of this information, and will assist SWAs in determining whether their
state currently has an executed Basic Agreement and Implementing Agreement with the
IRS.

During the August 2004 telephone conferences, IRS officials informed the SWA
representatives that they are directing their Government Liaisons to be more pro-active
in working with SWAs to obtain the 1099 data.

2. Meeting the IRS Safeguard Requirements

After an entity completes the enrollment process, a key IRS requirement for an entity to
receive Federal tax information is completing the Safeguard Procedures Report (SPR).
While an entity can start the Federal tax information application process without an
approved SPR, the IRS will not provide the data until they approve the SPR. The SPR
describes the procedures the entity will use to safeguard the confidentiality of the IRS
data and protect it against unauthorized use. The entity has to submit a new SPR every
six years or whenever significant changes occur in their safeguard program. IRS
officials told us that the Government Liaison is responsible for assisting entities in
completing the SPR. The level of assistance needed will depend on whether or not the
entity has previously prepared an SPR.



U.S. Department of Labor—Office of Inspector General                                         11
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers

A major obstacle identified by the SWAs was meeting the IRS safeguard requirements.
Representatives from the SWAs that were successful in obtaining and using the 1099
data informed us that they did not have to make significant changes to their IT
processes and audit operations to meet the safeguard requirements. SWA
representatives told us that their state’s centralized mainframe computers usually
already met the IRS security requirements because other state agencies or units were
receiving other Federal tax information.

The SWA representatives also informed us that the IRS Government Liaisons were very
helpful in assisting them to meet the safeguard requirements for the 1099 data.

According to IRS officials, if multiple state agencies use the same centralized
mainframe computer, and a safeguard review certified the system as being secure, then
its not necessary to re-certify the computer system for the purpose of the SWA
obtaining the 1099 data. IRS officials told us they estimate that 90 percent of the states
with shared and centralized computer facilities comply with the IRS safeguard
requirements.

During the August 2004 telephone conferences, the IRS officials informed the SWAs of
the availability of IRS Publication 1075, Tax Information Security Guidelines for Federal,
State, and Local Agencies. Sections 7.1 through 7.3 of the publication provides
information regarding requirements for preparing the SPR. The IRS informed SWA
representatives they can obtain IRS Publication 1075 through the Governmental Liaison
or via the Internet at www.irs.gov/pub/irs-pdf/p1075.pdf.

Additionally, as a result of the telephone conferences, the IRS officials provided
participants with a copy of the SPR along with suggestions and tips on how to complete
it. (See Exhibit A.) The IRS officials also provided a SPR checklist to assist the SWAs
in ensuring their SPR contains the required information. (See Exhibit B.)

3. IT Resources

Another obstacle that SWA’s faced in using the 1099 data was obtaining IT resources
needed to make the data useful for UI field tax audits. Of the 7 SWAs that told us this
was an obstacle, 4 received the 1099 data extract tape, but decided not to use it.

Officials from SWAs that were successful in using the 1099 data told us that because of
its size, they had to load the 1099 extract tape on their mainframe computers, which
required IT resources. The SWA officials told us they also needed IT resources to
perform the crossmatch of the Federal Employer Identification Number with the state
Employer Identification Number. The SWA officials also said they needed IT resources
to convert the data to a media (compact disk, etc.) so they could provide it to the UI field
tax auditors for direct access.

Officials from SWAs that were successful in using the IRS Form 1099 told us that they
used minimal IT staff time and cost to develop the necessary programming on the 1099


12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers

extract tape. The SWA officials told us that they consider the following factors to reduce
the universe of employers for potential audit to a manageable quantity.

       •   employer UI experience rating

       •   number of 1099s issued by employers

       •   payments over predefined levels

       •   industries that historically misclassify workers

4. 1099 Data is Over 2 Years Old

SWAs identified the data time lag as an obstacle for not applying for and using the 1099
data. The 1099 data is 2 years old when the SWAs receive it.

SWAs that were using the 1099 data told us the fact that the data is 2 years old does
not hinder its effectiveness for identifying potential audit leads. The SWA officials stated
that employers issuing 1099’s listed on the tape in the year 2000 are more than likely
still issuing 1099s to workers two years later. Also, we were told that while there is
always a possibility that some employers may not be in business by the time they
receive the tape, with so many 1099’s associated with employers on the tape to choose
from, the information (2 years old) is still very useful.

       *      *      *      *       *      *      *      *     *      *

We concluded that communicating the methods and strategies to the SWAs is effective
when all parties are involved – the IRS, OWS, and successful SWAs.

Recommendation

2. We recommend that the Assistant Secretary for Employment and Training
communicate to the SWAs interested in applying for and using the 1099 data how to
overcome:

       a. the complexity of the IRS application process;

       b. the difficulty in meeting the IRS safeguard requirements;

       c. obtaining the IT resources needed to make the 1099 data useful; and

       d. the perception that the age of the 1099 data is an obstacle to using it.




U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


Agency Response

ETA officials responded that they have been pro-active in complying with this
recommendation. On June 21, 2005, OWS coordinated a conference call with 18
states, the IRS, OIG and OWS. This call concentrated on explaining IRS safeguard
requirements that states must comply with in order to receive the 1099-MISC data, the
IT equipment needed, and a discussion of perceived problems in obtaining and using
the data. The states of New York and Idaho discussed their experience in complying
with these requirements and the benefit of using the data to uncover misclassified
workers.

Finally, this matter was given a high priority at the National UI Tax Conference held in
Boise, Idaho, during the week of August 2-5, 2005. An employee from the IRS made a
plenary session presentation on the “New Beginning” of cooperation between the IRS
and SWAs. In addition, two workshops were conducted on obtaining and using the
1099-MISC Extract Tape. The OWS, IRS, and the New Jersey SWA participated in
these workshops and explained the enrollment process, safeguard requirements, and
state benefits derived from using the data.

OIG Conclusion

The recommendation is resolved and closed. We determined that the action taken by
ETA during the FY 2005 IRS enrollment period addresses the recommendation. ETA
agreed to provide a copy of this report to those SWA’s interested in applying for the
1099 data during the FY 2006 IRS enrollment period (See recommendation number 3).
Therefore, no further corrective action is necessary.

Objective 4 − What results were achieved by SWAs using the 1099 data since the
IRS made it available in 2002?

Result - SWAs using the 1099 data identified misclassified employees, recovered
underreported UI tax contributions, and adjusted overreported UI tax
contributions

The results from UI field tax audits in which the SWAs used the 1099 data identified
misclassified employees, recovered underreported UI tax contributions, and adjusted
overreported UI tax contributions. As of December 2004, seven of the nine SWAs
reported that they identified misclassified employees. While the other two SWAs said
they used the 1099 data, they did not identity for audit any employers who had the
potential of misclassifying employees. The seven SWAs started reporting results at
staggered quarters beginning with the 4th quarter of calendar year 2002. As of
December 2004, 7 SWAs reported that they identified 7,118 misclassified employees,




14                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-05-005-03-315
                                 Use of IRS Form 1099 Data To Identify Misclassified Workers

recovered $1,492,521 underreported UI tax contributions, and adjusted $328,634
overreported UI tax contributions associated with these audits2.

We requested from the SWAs the results from UI field tax audits that they conducted
using the 1099 data. The following table provides the results as of December 2004:

                                                                                   Amount of
                                          Number       Percent                                     Amount of
                      Quarter                                     Number of        Recovered
                                 Number   of Audits   of Audits                                     Adjusted
                      Started                                      Identified        Under-
         SWA                       of     Resulting   Resulting                                   Overreported
                     Reporting                                    Misclassified     reported
                                 Audits       in          in                                         UI Tax
                      Results                                     Employees          UI Tax
                                           Change      Change                                     Contributions2
                                                                                  Contributions
    Arizona          4th 2003     123        81         66%              1,291      $ 74,091         $     905
    Idaho            2nd 2003       57       52         91%              1,434      $ 177,500        $       0
    Nebraska         4th 2002     443       229         52%                557      $       754      $ 33,346
    New Jersey       2nd 2004        9        6         67%                394      $ 90,309         $       0
    New York         1st 2004     311       134         43%              1,510      $ 880,278        $ 287,020
    South Carolina   2nd 2003       97       69         71%              1,386      $ 127,110        $       0
    Wisconsin        2nd 2003     164        78         48%                546      $ 79,479         $   7,363
      Totals                      1204      649                          7,118      $ 1,492,521      $ 328,634

The results listed in the table above demonstrate the effectiveness of the 1099 data in
identifying misclassified workers as independent contractors. Based on the information
provided by the SWAs, we found that continued updates on the results of SWAs using
the 1099 data can be used to encourage non-using SWAs of its benefits as a tool to
identifying misclassified employees and increase employer compliance with UI laws and
regulations.

Recommendation

3. We recommend that the Assistant Secretary for Employment and Training send a
notification, along with a copy of this report, to SWAs before the start of the 2006 IRS
enrollment period, encouraging them to apply for and use the 1099 data in their UI field
tax audit program.

Agency Response

ETA officials responded they will comply with this recommendation by sending a
notification and copy of this audit report to all SWAs six months before the August 2006
enrollment period begins.




2
  Overreported UI tax contributions represent incidents when mistakes are made and employers overpay
their UI tax contributions. These overpayments result in adjustments.

U.S. Department of Labor—Office of Inspector General                                                   15
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


OIG Conclusion

The recommendation is resolved and can be closed when we receive documentation
that the notification and audit report have been sent out to each SWA.




Elliot P. Lewis
December 31, 2004




16                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers




EXHIBITS




U.S. Department of Labor—Office of Inspector General                                17
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                                                             EXHIBIT A

IRS Suggestions, Tips, and Examples for Preparing a Safeguard Procedures
Report

                 SAFEGUARD PROCEDURES REPORT
NEED HELP? The information below was written to provide suggestions, tips, and
examples for use by State Employment Security Agencies in preparing a
Safeguard Procedures Report (SPR). This information DOES NOT replace
Publication 1075, Tax Information Security Guidelines for Federal, State, and
Local Agencies, but is intended to serve as an additional tool.

You can obtain Publication 1075 via the Internet at: www.irs.gov/pub/irs-
pdf/p1075.pdf


                         SAFEGUARD PROCEDURES REPORT

The SPR must be on an agency’s letterhead, signed by the head of the agency or
delegate, dated, and contain the following information:

       Suggestion: The first page of your SPR is on your Agency’s letterhead as
       if writing a letter to the Internal Revenue Service, Disclosure Officer. If you
       are not sure of the proper address, contact the IRS Governmental Liaison
       or Disclosure Officer in your State.

       Suggestion: The format of your SPR can be set up with each topic as a
       heading, as shown below and in Publication 1075, Pages 27 and 28, OR in
       an out-line style specifying the safeguard requirement followed by the
       descriptive narrative.

       Suggestion: See attached examples of Safeguard Procedures Reports.

Responsible Officer(s)

The name, title, address, and telephone number of the agency official authorized to
request Federal Tax Information (FTI) from the IRS.

The name, title, address, and telephone number of the agency official responsible for
implementation of the safeguard procedures.

       Tip: Generally the employees designated by your agency to be
       “Responsible Officers” are also named in your Implementing Agreement.
       Therefore, the information for this requirement is already established


U.S. Department of Labor—Office of Inspector General                                    19
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


       before preparing the SPR. The “Responsible Officers” can be the same
       person, if desired by your Agency.

Location of the Data

An organizational chart or narrative description of the receiving agency that includes all
functions within the agency where FTI will be processed or maintained. If the
information is to be used or processed by more than one function, then the pertinent
information must be included for each function.

       Suggestion: An appropriate response to this SPR requirement is attaching
       an organizational chart of your Agency and providing sufficient narrative to
       describe the locations/units mentioned on the organizational chart where
       the Federal information will be handled.

Flow of the Data

A chart or narrative describing the flow of FTI through the agency from its receipt
through its return to the IRS or its destruction, how it is used or processed, and how it is
protected along the way. (See safeguard requirements below.) Indicate if FTI is
commingled or transcribed into data kept by the agency. Any data turned over to an
agency contractor for processing must be fully disclosed and accounted for.

       Suggestion: The response to this SPR requirement should provide
       narrative describing how the information is handled from the time of
       receipt until it is destroyed. Using a step-by-step process makes it easier
       to identify the safeguard protections at each point of the processing of the
       data.

System of Records

A description of the permanent record(s) used to document requests for, receipt of,
distribution of (if applicable), and disposition (return to IRS or destruction) of the FTI
(including tapes or cartridges). Agencies are expected to be able to provide an “audit
trail” for information requested and received, including any copies or distribution beyond
the original document or media.

       Suggestion: This requirement should describe the process for recording
       requests and receipt of Federal Tax Information. Computer or physical
       logs or other documentation is recommended. Who received the data,
       when, and in what format (tape, Prints)? When was it returned? When was
       it destroyed or returned to the IRS? Signatures of the employees receiving
       and recording destruction should be provided.




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


Secure Storage of the Data

A description of the security measures employed to provide secure storage for the data
when it is not in current use. Secure storage encompasses such consideration as
locked files or containers, secured facilities, key or combination controls, off-site
storage, and restricted areas.

       Suggestion: If your Agency has developed an internal document
       specifying how Agency information must be handled and it meets the
       requirements, it can be used for FTI. You can attach a copy of your
       existing procedures to the SPR, describing how it related to FTI.

       Tip: Information regarding secure storage of Federal Tax Information is
       covered in Publication 1075, Sections 4.1 through 4.7 (Pages 9 through 15).

Restricting Access to the Data

A description of the procedures or safeguards employed to ensure access to FTI is
limited to those individuals who are authorized access and have a need to know.

Describe how the authorized recipient(s) will protect the information from unauthorized
access when in use.

The physical barriers to unauthorized access should be described (including the
security features of the facilities where FTI is used or processed) and systemic or
procedural barriers.
Disposal

A description of the method(s) of disposal of the different types of FTI provided by the
IRS when not returned to the IRS. The IRS will request a written report that documents
the method of destruction and that the records were destroyed.

       Tip: Requirements for disposal of Federal Tax Information (FTI) are
       covered on Pages 31 and 32 of Publication 1075, Section 8.1 through 8.4.

       Suggestion: An appropriate response to this requirement describes what
       methods your Agency will use to destroy FTI, such as: “Documents
       disposed of will either be returned to IRS or shredded in our
       (administrative) office. Shredding in our office will be witnessed by
       another staff person and documented in the logbook. Magnetic Tapes will
       be degaussed, witnessed by another staff person, and documented in the
       log book.”




U.S. Department of Labor—Office of Inspector General                                  21
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers


Computer Security

All automated information systems and networks that receive, process, store, or
transmit sensitive but unclassified information (FTI) must have adequate safeguard
measures in place to restrict access to sensitive data. (See Section 5.6 – Computer
Security and Section 5.7 – Common Criteria.) These safeguards should address
each applicable tier level.

A. Microprocessors and Mainframe Systems (Tier I)

Describe the systemic controls employed to ensure all IRS data is safeguarded from
unauthorized access or disclosure. Include the procedures to be employed to ensure
secure storage of the disks and the data, limit access to the disk(s), or computer
screens and destruction of the data.

Additional comments regarding the safeguards employed to ensure the protection of the
computer system are also appropriate including security features of the facility.

B. Local and Wide Area Networks, Internet, etc. (Tier II)

Describe in detail the security precautions undertaken if the agency’s computer systems
are connected or planned to be connected to other systems.

C. Personal Computer/Notebook/Laptops (Tier III)

In the event that FTI is (or is likely to be) used or processed by agency employees on
personal computers, the Safeguard Procedures Report must include procedures for
ensuring that all data is safeguarded from unauthorized access or disclosure. Include
the procedures to be employed to ensure secure storage of the disks and the data, limit
access to the disk(s), or computer screens and destruction of the data.

Agency Disclosure Awareness Program

Each agency receiving FTI should have an awareness program that annually notifies all
employees having access to FTI of the confidentiality provisions of the IRC, a definition
of what returns and return information is, and the civil and criminal sanctions for
unauthorized inspection or disclosure. A description of the formal program should be
included in the SPR.




22                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


Tip: Suggestions for methods to inform and educate employees regarding
securing FIT are listed in Publication 1075, Page 25, starting at Section 6.2.
Education for employees regarding protection of FIT can be incorporated with
educating employees regarding protection of your Agency’s taxpayer
information.

Suggestion: The following is sample wording to assist Agencies in meeting the
Agency Disclosure Awareness Program safeguarding requirements. See Page 28
(last paragraph) of Publication 1075 for reference to these requirements.

                               DISCLOSURE LIMITATIONS

Unauthorized disclosure, printing, or publishing of any Federal return or return
Information, or any information therefrom, is punishable by fine up to $5,000 or
imprisonment up to 5 years, or both, together with costs of prosecution. See Section
7213,

       Internal Revenue Code (IRC) and 18 U.S.C. Section 1905. A person authorized to
       access IRS return or return information can be prosecuted under the federal “Anti-
       Browsing” Law, see IRC Section 7213A, if the information was accessed without a
       need to know. The offense constitutes a federal misdemeanor punishable by not
       more than 1 year in prison, or a $1,000 fine, or both, plus cost of prosecution. In
       addition, IRC Section 7431 provides for civil damages of not less than $1,000 per
       violation for unauthorized disclosure of such information, together with
       cost of prosecution.

      It is unlawful for any person willfully to offer any item of material value in
      exchange for any return or return information and to receive as a result of such
      solicitation any such return or return information. Such action is punishable by
      fine up to $5,000 or imprisonment up to 5 years, or both, together with costs of
      prosecution. See Section 7213 of the IRC and 18 U.S.C. Section 1905.

       I acknowledge that I am aware of the above civil and criminal liabilities.

       Name (please print)______________________________ Date ___________


       Signature ______________________________________




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                         EXHIBIT B

      SAFEGUARD PROCEDURES REPORT – CHECK LIST
 SAFEGUARD PROCEDURES REPORT REVIEW CHECKLIST FOR STATE LABOR
                          AGENCIES

                       AGENCY:___________________________

Does the SPR contain the following information:

   1. Name, title, and phone number of official responsible for implementing safeguard
      procedures.
                    YES                NO

   2. On agency letterhead.
                  YES                      NO

   3. A chart or description of the organizational structure that includes all functions
      within the agency where federal tax information will be processed or maintained.
                    YES                  NO

   4. A chart or description of the flow of federal tax data through the organization from
      the point of receipt to its return to IRS or destruction, how it is used or processed,
      and how it is protected along the way (including pertinent delegation orders or
      equivalent authority permitting the use, handling, access, etc. at each point in the
      flow).
                     YES                    NO

   5. A determination whether federal tax data is commingled with or transcribed into
      data kept by the agency.
                    YES                 NO

   6. A description of the permanent record(s) used to document requests for, receipt
      of, distribution of (if applicable), and disposition (return to IRS or destruction) of
      the FTI (including tapes or cartridges).
                      YES                    NO


   7. A description of the security measures used to provide secure storage for the
      data when it is not in current use (locked files, containers, key or combination
      locks, etc.).
                    YES                   NO




U.S. Department of Labor—Office of Inspector General                                       25
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers

     8. A description of the procedures or safeguards used to ensure access to federal
        tax data is limited to those individuals who are authorized access and have a
        need to know.
                       YES                   NO

     9. A description of how the information will be protected from unauthorized access
        when in use by an authorized recipient.
                      YES                 NO

     10. A description of the method(s) of disposal of the various types of FTI provided by
         the IRS, when not returned to IRS.
                       YES                 NO

     11. A description of the safeguards in place for information systems and networks
         that receive, process, store, or transmit sensitive but unclassified information.
         Specifically:
            a. Tier I – describe the systemic controls employed to ensure all IRS data is
                safeguarded from unauthorized access or disclosure including procedures
                to be employed to ensure secure storage of the disks and data, limit
                access to the disk(s), or computer screens and destruction of the data.
                Also include protection of the computer system and security features of
                the facility.
            b. Tier 2 – describe in detail the security precautions undertaken if the
                agency’s computer systems are connected or planned to be connected to
                other systems.
            c. Tier 3 – in the event that FTI is (or is likely to be) used or processed by
                agency employees on personal computers, the procedures for ensuring
                that all data is safeguarded from unauthorized access or disclosure. Also
                include procedures to be used to ensure secure storage and limit access
                to the disk(s) or computer screens and the destruction of the data.
                        YES                  NO (address each Tier)

     12. A description of the activities of the agency to ensure that all employees having
         access to FTI and trained annually on the confidentially provisions of the IRC, a
         definition of what returns and return information is, and the civil and criminal
         sanctions for unauthorized inspection or disclosure.
                        YES                   NO


     REVIEWED BY: _______________________

     DATE: ______________________________

     Revised 7/04




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers




Appendices




U.S. Department of Labor—Office of Inspector General                                27
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                                                             APPENDIX A
BACKGROUND

The Federal-state Unemployment Compensation program, created by the Social
Security Act of 1935, offers the first economic line of defense against the effects of
unemployment. Through payments made directly to eligible unemployed workers, it
ensures that at least a significant portion of the necessities of life most notably food,
shelter, and clothing can be met on a week-to-week basis while a searching for work.
The Unemployment Compensation program is almost totally funded by employer taxes,
either Federal or state. Unfortunately, not all employers voluntarily report all UI-covered
wages or pay their fair share of UI taxes as required by law.

Employers who misclassify employees as independent contractors reduce tax liability by
not having to pay state and Federal UI, Social Security, and Medicare taxes. Employers
also avoid the costs of withholding income taxes or providing fringe benefits as they do
for employees. Other incentives for misclassifying employees include the costs
associated with minimum wage laws, workers’ compensation insurance, and collective
bargaining. When an employee is misclassified, tax revenues are lost.

A UI field tax audit is a systematic examination of an employer’s books and records
using generally accepted auditing standards and procedures, and it covers a specified
period of time during which the employer is liable for reporting under the law. A well-
planned and cost-effective UI field tax audit program is an efficient means of ensuring
compliance with state unemployment compensation law and timely collection of taxes
on an equitable basis. Section 3679 of the Employment Security Manual, Selection of
Employers for Audit, reads “States are encouraged to maintain audit selection criteria
that include indices that potentially reflect noncompliance such as high employee
turnover, sudden growth or decrease in employment, type of industry, location
(geography) of employers, prior reporting history, results of prior audit, and adjudicated
determinations.”

OIG’s 1999 report (Report Number. 03-99-006-03-315) on SWA’s best practices for
improving the effectiveness of UI field tax audits found the use of 1099 data to be an
effective tool for identifying employers who misclassified workers as independent
contractors. Believing this to be a practice that all states should be using, we conducted
a survey of 52 SWAs to determine if they would be interested in using the 1099 data as
a tool in audit selection. Our survey disclosed that 35 SWAs would use 1099 data if the
IRS made it available.




U.S. Department of Labor—Office of Inspector General                                     29
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers

Therefore, OWS met with IRS officials and requested them to develop a 1099 extract
tailored for SWAs. After several meetings, the IRS developed the 1099-MISC Extract to
provide Non-employee Compensation Federal Tax Information (Form 1099-MISC, Box
7) to the SWAs. The payment information provided on the extract is limited to 1099-
MISC, Box 7 information, and the extract tape would only contain records if there was
data in Box 7. Non-payment information would only include payer and payee entity
information. OWS and IRS representatives introduced the 1099 extract tape to the
SWAs at the UI Tax Conference in July 2001. At the conference, IRS representatives
explained the process required for government entities requesting any Federal tax
information.

As with any Federal tax information, to obtain 1099 data the SWA’s are required to
apply annually with the IRS, negotiate an individual agreement with the IRS, and meet
various requirements to ensure the data is safeguarded against unauthorized use. The
IRS application period is 1-2 months, usually occurs in August and September, and if all
requirements are met, the data is usually provided in May of the following year. The
first period to apply for the 1099 extract was August 2001, in which the IRS made the
tape available in May 2002.

During the period June and July 2004, OWS and IRS officials conducted regular
meetings to address their concerns about the low number of SWAs using the 1099 data.
As a result, OWS and IRS initiated further outreach efforts by conducting telephone
conference calls with SWAs in August 2004 to encourage them to apply to the IRS for
the 1099 data.




30                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                                                           APPENDIX B

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The purpose of our audit was to assess the extent of SWAs use of the 1099 data.
Specifically, we wanted to determine:

     1. How many SWAs were using the 1099 data to identify potential employers
        misclassifying employees as independent contractors?

     2. What were the obstacles that influenced the SWA’s not to apply for and use the
        1099 data?

     3. What were the methods and strategies used by the SWAs that were successful
        in obtaining and using the 1099 data?

     4. What results were achieved by SWAs using the 1099 data since the IRS made
        it available in 2001?

Scope and Methodology

To determine the extent of SWAs using the 1099 data, we conducted telephone
interviews with UI field tax audit representatives from 52 SWAs in September and
October 2001, the time when the IRS first made the 1099 data available. We did not
include California’s SWA because it was already using 1099 data in its UI field tax audit
program before our 1999 audit recommended it. This audit focused on the use and
results of the 1099 data by the SWAs that enrolled to receive the data as a result of our
1999 audit recommendation.

During the telephone interviews with the representatives from the 52 SWAs, we also
identified the obstacles that influenced the decisions of SWAs that decided not to apply
for the 1099 data. In June 2002, the month after the 1099 extract tape was expected to
be provided to the 19 SWAs that applied, we contacted officials from these SWAs to
determine the status of their progress. Ten of these SWAs were either not successful in
obtaining the data or they obtained the data, but decided not to use it. These SWAs
also provided us obstacles in obtaining and using 1099 data.

To determine methods or strategies to overcome the obstacles, we developed a
questionnaire designed to address the obstacles and visited UI field tax representatives
of four SWAs that were successful in obtaining and using the IRS Form 1099 data –
Nebraska, Wisconsin, South Carolina, and Idaho. We selected these SWAs because
they were the earliest users of the 1099 data with results. Specifically, we interviewed
the individuals responsible for preparing the IRS application, addressing the IRS
security requirements, and providing the programming support necessary to properly

U.S. Department of Labor—Office of Inspector General                                   31
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers

utilize the tape. We conducted these interviews in November and December 2003.
Additionally, IRS and OWS officials invited us to participate in their monthly telephone
conferences between June and August 2004 to provide the results of our interviews with
the SWAs. These telephone conferences provided us additional methods and
strategies that SWAs can use to overcome obstacles in obtaining and using the 1099
data.

To determine the results achieved, we contacted officials in each of the SWAs that were
successful in using the 1099 data and requested for each quarter, the number of audits
in which the 1099 data was used, the number of misclassified employees identified, and
the effect on the UI tax. We did not perform tests to determine the accuracy of the data
the SWAs provided. The reported data covered October 2002 through December 2004.

We did not contact officials from the SWA in California or use the results of their 1099
data because we wanted to measure the use and results of the data by SWAs after the
1999 audit recommended it. The 1999 audit identified the California as the only SWA
using 1099 data in its UI field tax audits.

We conducted this audit in accordance with Government Auditing Standards.




32                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                                                         APPENDIX C

ACRONYMS AND ABBREVIATIONS


       DOL           U.S. Department of Labor

       ETA           Employment and Training Administration

       FTI           Federal Tax Information

       IRC           Internal Revenue Code

       IRS           Internal Revenue Service

       IT            Information Technology

       OIG           Office of Inspector General

       OWS           Office of Workforce Security

       SPR           Safeguard Procedures Report

       SWA           State Workforce Agencies

       UI            Unemployment Insurance

       1099 data     IRS 1099-MISC Income Data




U.S. Department of Labor—Office of Inspector General                                33
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
                            Use of IRS Form 1099 Data To Identify Misclassified Workers


                                                                         APPENDIX D

RESPONSE TO THE DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                35
Report Number: 03-05-005-03-315
Use of IRS Form 1099 Data To Identify Misclassified Workers




36                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 03-05-005-03-315
